     Department of Health and Human Services

             OFFICE OF
        INSPECTOR GENERAL




    HOME HEALTH: PROBLEM PROVIDERS 

     AND THEIR IMPACT ON MEDICARE 





                         JUNE GIBBS BROWN
                         Inspector General

                              JULY 1997
I                           OEI-09-96-00110
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This statutory
mission is carried out through a nationwide program of audits, investigations, inspections,
sanctions, and fraud alerts. The Inspector General informs the Secretary of program and
management problems and recommends legislative, regulatory, and operational approaches
to correct them.




                       Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office
of Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the
public. The inspection reports provide findings and recommendations on the efficiency,
vulnerability, and effectiveness of departmental programs.

OEI’s San Francisco Regional Office prepared this report.   Principal staff included:

       Paul A. Gottlober, Deputy Regional Inspector General 

       Kaye D. Kidwell, Regional Inspector General 

       Don Loeb, Lead Analyst 

       Kathy Dezotte, Program Assistant 

       Cynthia Lemesh, Consultant 

       Celeste Anderson and Associates, Consultant 

       Jennifer Antico, Program Specialist 


To obtain a copy of this report, call the San Francisco Regional Office at 415-437-7900.
                EXECUTIVE                           SUMMARY

PURPOSE

This report identifies and describes the common characteristics of problem home health
agencies and how these agencies contribute to Medicare fraud, abuse, and waste.

BACKGROUND

Medicare covers home health care to homebound beneficiaries who need intermittent skilled
nursing care and/or physical or speech therapy. Medicare does not limit the number of visits
or the length of home health coverage. Services are covered for as long as reasonable and
necessary to treat the patient’s illness or injury. There are no beneficiary copayments or
deductibles for home care visits.

While the majority of Medicare providers are complying with the home health benefit
requirements, recent work by the Office of Inspector General and the General Accounting
Office has shown that this benefit is very susceptible to abuse. Furthermore, it is sometimes
extremely difficult, and often impossible, for the program to recover overpayments. To gain
greater insight about these problems, we examined a stratified random sample of 60 home
health agencies from a universe of 698 providers that were identified by the fiscal
intermediary, the Health Care Financing Administration (HCFA), or the Office of Inspector
General as having met our definition of a “problem” home health agency. We define a
problem home health agency as one that has abused or defrauded Medicare or
misappropriated Medicare funds through the cost report or claims process. The providers
were chosen from five States--New York, Florida, Illinois, Texas, and California--that were
the focus for the special Medicare anti-fraud initiative known as Operation Restore Trust.

FINDINGS

One quarter of home health agencies in the five Operation Restore Trust States are
“problem” providers, and they receive almost 45 percent of all Medicare expenditures for
home health services in these States

Of the $5.7 billion paid to home health agencies in the five Operation Restore Trust States in
1995, problem agencies received $2.5 billion. Nationally, 8949 Medicare-certified home
health agencies received $15.4 billion.

Problem home health agencies share ownership and operational characteristics that can
thwart overpayment recovery and undermine sanctions

Most problem home health agencies are closely-held corporations. Their owners are
frequently involved in related organizations and complex businesses relationships. Some of
them have used their corporations to misappropriate Medicare funds and incur substantial
Medicare overpayments that cannot be recovered. The owners of problem agencies


                                                i
frequently rely on family members and consultants to help them run their agencies. Relying
almost exclusively on Medicare for income and assets, entrepreneurs are able to open and
operate home health agencies without fixed assets or startup costs. The owners and
principals can continue to receive Medicare money, because HCFA has few preventive
measures.

Expansion of the benefit and the lack of any restrictions on certification have led to
ever-increasing administrative problems with littleprospect of mitigation

The number of home health agencies has almost doubled, and Medicare home health costs
have more than quadrupled since 1989. Thorough review of cost reports and claims can
uncover a wide variety of unallowable costs and non-covered services, but submission
requirements and limited resources hamper fiscal intermediaries’ oversight efforts.

RECOMMENDATIONS

To protect the Medicare home health benefit, HCFA needs to develop and implement
additional program safeguards that would (1) strengthen it’s ability to identify problem
providers, (2) prevent problem HHAs from entering the program, and (3) prevent the
Medicare trust fund from incurring further losses due to the activities of problem
HHAs.

In order to accomplish this, HCFA should take administrative action or, if necessary, seek
legislative authority to:

       require surety bonds of new and existing home health agencies;

       require user fees to cover the cost of certifications, comprehensive reviews, and
       recertifications;

       require that agency principals have prior health care experience;

       develop a data bank of owners, principals, and related organizations;

       require that agency principals and owners provide their Social Security and Employer
       Identification numbers prior to certification;

       require that home health agencies are fiscally sound prior to certification;

       deny certification to owners and principals of current or defunct agencies who are not
       financially responsible and trustworthy;

       preclude the discharge of Medicare debts through bankruptcy.




                                                 11
We also reiterate our previous recommendation that HCFA should:

  0	
       tighten controls over the periodic interim payment method of reimbursement and seek
       legislation that would eliminate it entirely.

PROPOSED LEGISLATION

The President has announced legislative proposals to fight fraud and abuse in health care.
Many of the provisions in the President’s “Medicare and Medicaid Fraud, Abuse, and Waste
Prevention Amendments of 1997” would strengthen HCFA’s ability to address our findings
regarding problem HHAs. Several of these provisions are also contained in Medicare anti-
fraud legislation that has been proposed by Congress. The President’s proposals include:

       denying participation in Medicare for any person convicted of a felony, 

       requiring providers to furnish Social Security and Employer Identification numbers of 

       all owners and managing employees prior to certification, 

       collecting user fees to perform certifications and recertifications, 

       excluding entities controlled by family members of sanctioned individuals, 

       penalizing anyone who relies on sanctioned individuals to authorize or provide 

       services, 

  b    prohibiting providers from using bankruptcy to stay the recovery of overpayments or 

       discharge Medicare debts, 

       clarifying the definitions of homebound and part-time or intermittent services, and 

       eliminating PIP through the implementation of prospective payment in the year 2000. 


AGENCY COMMENTS

We received comments on the draft report from the Assistant Secretary for Planning and 

Evaluation and the Assistant Secretary for Management and Budget. Based on their 

comments we modified the report to more fully describe recent anti-fraud legislative 

proposals which have been sent to the Congress by the President and to clarify that not all of 

the increase in home health services in recent years is the result of illegitimate billings by 

problematic providers. 


We also received comments from the HCFA Administrator. The HCFA concurs with the 

majority of our recommendations, although only partially with two of them that concern the 

financial stability of HHAs. Furthermore, HCFA does not support our recommendation for 

a moratorium on certifying new home health agencies until new program controls are put into 

effect. 


We continue to believe that the financial management integrity should be an important 

criterion in certifying them as suitable for participation in the Medicare program. 


With respect to a moratorium, HCFA states that it has the responsibility to establish and 

implement adequate program requirements and safeguards and that if a home health agency is 

able to comply with these requirements, it should be allowed to enter the program. We 


                                                ...
                                                111
agree that HCFA does have such a responsibility. We are also aware that numerous
legislative proposals similar to those we recommend in this report are now pending before
the Congress. If enacted, these proposals would greatly strengthen HCFA’s ability to curb
abuses. For these reasons, we have withdrawn our recommendation for a moratorium at this
time.

However, we remain very concerned about this program. Current program requirements are
woefully inadequate to prevent financially irresponsible or fraudulent home health agencies
from becoming Medicare providers. On the same day that we are issuing this report, we are
issuing another one that shows that, in four of the five States reviewed in this report, 40
percent of Medicare payments for home health should not have been made, resulting in
losses of approximately $2.6 billion over a 15-month period. We believe that Medicare
cannot continue to sustain losses of this magnitude. If, even after enactment of new
legislation and stronger administrative action, there is no major reduction of improper
payments, then more dramatic action will need to be taken by HCFA and the Congress.
This should include the establishment of strict criteria relating to the trustworthiness of
applicants, adequate resources to allow for a thorough review of applicants, and a concurrent
decertification of problem providers already certified in the program who are responsible for
a disproportionate share of Medicare losses. Under these circumstances, a brief moratorium
could be appropriate while HCFA tools up its review mechanisms and reexamines the
suitability of previously certified problem providers.

The full text of each agency’s comments appears in Appendix D.




                                               iv
                          TABLE                            OF               CONTENTS

                                                                                                                          PAGE

EXECUTIVE SUMMARY

INTRODUCTION                 ..........................................                                                      1

FINDINGS ...............................................                                                                     .

  � One-fourth        are problem providers ...............................                                                  6

  � Ownership         and operational characteristics ..........................                                             7

  � Expansion        created administrative problems                            ........................                    12

RECOMMENDATIONS                         .....................................                                               18

APPENDICES

  A: Comparison of ORT and non-ORT States ...........                                                      ...........     A-l

  B: A Complex Corporate Web ....................                                                          ............    B-l

  C: Synopsis of Additional Fraud and Abuse Cases                                          .......         ............    C-l

  D: Agency Comments .........................                                                             ...........     D-l
                              INTRODUCTION

PURPOSE

This report identifies and describes the common characteristics of problem home health
agencies (HHAs) and how these agencies contribute to Medicare fraud, abuse, and waste.

BACKGROUND

The Medicare Home Health Benefit

Medicare covers home health care to homebound beneficiaries who need intermittent skilled
nursing care and/or physical or speech therapy. Medicare home health benefits include
(1) part-time or intermittent nursing care provided directly by or under the supervision of a
registered nurse; (2) physical, occupational, and speech therapy; (3) medical social services if
related to the patient’s health problems; and (4) part-time or intermittent home health aide
services when provided as an adjunct to skilled nursing or therapy care. To be covered by
Medicare, home health services must be furnished under a plan of care that is signed and
reviewed by a physician every 62 days.

Medicare does not limit the number of visits or the length of home health coverage. Services
are covered for as long as reasonable and necessary to treat the patient’s illness or injury.
As a Part A benefit, there are no beneficiary copayments or deductibles for home care.

To be eligible for Medicare reimbursement, HHAs must be certified Medicare providers.
The Health Care Financing Administration (HCFA) administers the Medicare program.
HCFA contracts with State licensing and certification agencies who are responsible for
determining if providers meet and continue to meet the Medicare conditions of participation.

Once certified, providers may furnish home health services using their own staff or others
under a contract arrangement. Reimbursement is based on the costs (subject to
geographically-based cost limits) incurred in providing covered visits to eligible beneficiaries.
Medicare-certified HHAs are either proprietary (private, for-profit), voluntary (private,
nonprofit), or Government owned and operated.

The HCFA contracts with eight regional home health intermediaries, referred to throughout
this report as fiscal intermediaries, to process home health claims, set reimbursement rates,
make payments, educate providers, audit cost reports, and maintain payment safeguards.

Rapid Growth in Home Health

The home health care industry is the fastest growing segment of health care in the United
States. This growth began in 1989, when, as a result of a lawsuit, changes in Medicare
regulations expanded eligibility and eliminated the cap on the number of visits. Since that
time, the number of Medicare-certified HHAs has risen from 5730 in 1990 to 8949 in 1995.


                                                 1
While the number of beneficiaries receiving HHA services has grown, costs to the Medicare
program have increased disproportionately. Total annual Medicare expenditures for home
health grew from $3.7 billion in 1990 to $15.4 billion in 1995. As detailed in the following
chart, home health visits more than tripled and payments more than quadrupled in 6 years.

               NATIONAL MEDICARE HOME HEALTH UTILIZATION STATISTICS




        Total Medicare Beneficiaries

        Beneficiaries Who Received HHA Services             1.98 million I   3.48 million I    +76% 11

        Total HHA Reimbursement                             $3.7 billion I   $15.4 billion I   +316% 11

        HHA Percentage of Total Medicare Program
                                                                  3.7%              8.7% 1     +135% 11
        Dollars

        Average HHA Reimbursement per Patient                    $1,892 1          $4,4381     +135% 11

        Total HHA Visits                                     70 million I     250 million I    +2x%   11

        Average HHA Visits per Patient
        Percentages may not be exact due to rounding

Many of these increases can be traced to the influx of for-profit HHAs. According to a
1996 General Accounting Office (GAO) report, proprietary agencies are not only the highest
utilizers of HHA services, they have undergone the most rapid growth. In 1993, proprietary
agencies provided an average of 78 visits annually per beneficiary, while the number of visits
provided by voluntary and government agencies averaged 46. Furthermore, in 1989,
35 percent of all HHAs were proprietary, but, by 1995, approximately 50 percent were.
In a 1995 study of variation in Medicare payments for home health services, the Office of
Inspector General (OIG) found that proprietary for-profit HHAs receive higher
reimbursement per visit and provide significantly more visits per patient than either voluntary
non-profit or government owned and operated HHAs.

Inadequacy of Current Safeguards

While the majority of Medicare providers are complying with the home health benefit
requirements, recent work by both the OIG and the GAO has shown that the home health
benefit is very susceptible to fraud and abuse. For example, the OIG recently completed
audits of eight HHAs in Florida, Pennsylvania, and California. These audits revealed that
between 19 and 64 percent of the home health visits that had been billed by the HHAs did
not meet Medicare coverage guidelines. Patients were not homebound and visits that had
been billed to Medicare were not medically reasonable or necessary, not documented or
provided, and not authorized by physicians. Preliminary data from Statewide audits in New
York, Texas, Illinois, and California show similar problems.




                                                       2

The OIG has investigated numerous cases of home health fraud during the last several years.
Appendix C contains a synopsis of some fraud cases that were not included in the sample we
selected for this inspection.

Definition of Problem Home Health Agency

For purposes of this inspection, we tentatively defined a “problem” HHA as one that has
been identified by HCFA, a fiscal intermediary, the State certification and/or licensing
agency, or the OIG as meeting one or more of the following conditions:

       has incurred significant uncollected overpayments; 

       routinely submits cost reports with significant inappropriate and unallowable costs; 

       files a cost report that is determined to be unauditable; 

       routinely does not file cost reports within a reasonable time; 

       has submitted multiple claims for services that are not medically necessary; 

       has submitted multiple claims for services that were not rendered; 

       continues to submit problem claims despite educational contacts; 

       has significant certification deficiencies; 

       has been referred to the fiscal intermediary’s program integrity unit; or 

       has been referred to the OIG by the fiscal intermediary. 


As noted in the methodology section which follows, prior to selecting our sample, we further
refined our definition to assure that we included only those HHAs with significant and/or
multiple problems.

Operation Restore Trust

Operation Restore Trust (ORT) began as a 2-year a new health care anti-fraud demonstration
initiative. The ORT is a crackdown on Medicare and Medicaid fraud, waste, and abuse in
HHAs, nursing homes, and durable medical equipment suppliers in five States--California,
New York, Florida, Texas, and Illinois--that account for 40 percent of the nation’s Medicare
beneficiaries and program expenditures. As part of ORT, the OIG has undertaken a number
of national program inspections aimed at identifying and eliminating systemic weaknesses that
allow fraud, waste, and abuse to occur in the Medicare program. We conducted this
inspection as part of ORT.

The fiscal intermediaries serving the five ORT States are Blue Cross of California, Blue
Cross of Illinois, Aetna (Florida), Palmetto Government Benefits Administrators (Texas),
United Government Services (New York), and IASD Health Services Corporation (Iowa,
national alternate intermediary).

METHODOLOGY AND SCOPE

In June 1996, the California Operation Restore Trust Steering Committee convened a
meeting of representatives from the OIG, HCFA, and the fiscal intermediaries to discuss
participants’ concerns about fraud, abuse, and waste in the Medicare home health benefit.


                                               3
Based on that meeting and additional analysis, we developed our initial definition of a
“problem” HHA.

From July through September, we visited the five Medicare fiscal intermediaries who serve
the ORT States as well as the backup intermediary in Iowa. In addition to conducting
interviews with fiscal intermediary audit, medical review, and program integrity staff, we
reviewed selected files to determine how and what information is routinely maintained by
intermediaries. Based on the visits, we were able to refine our working definition of a
problem HHA and develop a list of characteristics to look for during the inspection.

In addition to the fiscal intermediary staff, we conducted visits and telephone interviews with
the State licensing and certification agencies and HCFA regional offices to determine what
information could be retrieved from their files to help us identify common characteristics.
These discussions led us to investigate the use of commercial databases to obtain information
about corporations and individuals who either own or manage HHAs. While none of these
database systems are comprehensive and all of them have their limitations, we chose CDB
Infotek to help validate and complement information we collected.

Although each organization maintains much information, we learned that there is little
consistency and considerable variation in the nature and type of information as well as the
way the information is maintained and retained. As might be expected, we found
considerable duplication of information and data among the various organizations.

Universe and Sample Selection: The universe for this inspection consists of all
Medicare-certified HHAs in the ORT States which meet one or more of the conditions listed
in our definition of a problem HHA. The list of 698 providers was compiled from lists of
problem providers identified by fiscal intermediaries serving the ORT States during the
fourth quarter of fiscal year 1996. Our original list had approximately 800 providers, but we
refined the list to include only HHAs with significant and/or multiple problems.

                          PROBLEM MEDICARE HHAs BY ORT STATE


                            State       Certified HHAs       Problem HHAs

                      California             653                 145

                    11Florida       1




                    IITOTAL         I       2729         I       698



We selected 60 providers using a simple random sample, stratified by fiscal intermediary.
Our sample consisted of 10 providers for each of the 6 fiscal intermediaries serving the




                                                   4

5 ORT States. For Iowa, we selected 10 HHAs from the ORT States with the proportions
based on the total number of agencies per State: 3 from California, 4 from Texas, 1 from
Illinois, 1 from New York, and 1 from Florida. For all but one fiscal intermediary, we used
spares because file information was missing or an audit was in progress at the time of our
visit.

Data Collection: We gathered data from the following sources: (1) the audit, medical
review, and program integrity files maintained by the six fiscal intermediaries; (2) public
records regarding business ownership, criminal convictions, and related information
maintained on-line by CDB Infotek; and (3) files and databases maintained by the OIG,
HCFA, and State licensing and certification agencies.

The inspection team conducted on-site visits to the fiscal intermediaries to review their files
for the 60 sample HHAs. We combined the information from the on-site reviews with data
and information from CDB Infotek as well as HCFA and the OIG. We used a database
software program for analysis.

Many of the percentages and statistics mentioned in the report findings are understated for
the following reasons:

  �    We relied on information contained in fiscal intermediary files, and these files are not
       consistently and uniformly maintained;
  0    State and national databases are dissimilar and not always thorough;
  �    Many of these home health agencies are under current investigation and therefore the
       fiscal intermediary files lack valuable information;
  �    Many of the HHAs are so new that fiscal intermediary files do not include detailed
       audit information; and
  0    Some of the HHAs had not billed Medicare in 1995 because they had filed bankruptcy
       in a previous year.




                                                5

                                                                                                                                FINDINGS

:‘:‘:‘:‘:‘:‘:‘:‘:‘:‘.‘.~.......r................‘.‘.‘................................
                                                                        ...           ..i..                      i,.. ......................,.,...,.,.....,
                 ~~~~~~~~~~~~~~~~~~~.....~~~~~~~~...,..,.,.,.,.,.,.,.,.,.,.,.........,.,...,.,...,.,.~.....,.,...,.,.,.,.,.,.,.,.,.,.,.,.,.,...          t    .., ..,   ..__._. __. _.   ,.. ,........._.__._.   ,. ,.   _.........   ,.. ,..   _. ., .,



        One quarter of home health agencies in the five Operation Restore Trust States are
        “probIem” providers, and they receive almost 45 percent of all Medicare
        expenditures for home health services in these States


More than 25 percent of the home health agencies in ORT States are problem providers

Of the 2729 HHAs in the 5 ORT States, our list of problem providers totalled 698, or
approximately one-fourth of the total number of HHAs. Nationally, there were 8949
Medicare-certified HHAs in 1995.

Of the 676 problem HHAs for which we have ownership information, 80 percent are
for-profit with an additional 10 percent designated as non-profit but private. Nationwide,
slightly less than 50 percent of all Medicare-certified HHAs are for-profit.

Problem home health agencies received nearly 45 percent of Medicare home health
payments in the ORT States

Although the problem providers represented approximately 25 percent of the total number of
HHAs in the ORT States, they received $2.5 billion of the $5.7 billion paid to HHAs in
these States in 1995.’ Nationally, Medicare paid $15.4 billion for home health services.

For-profit problem HHAs received $1.74 billion or almost 70 percent of the total Medicare
payments that were made to problem providers in the five ORT States. While this represents
a smaller percentage of total reimbursement than their numbers might indicate, their average
reimbursement per patient is approximately $6000 which is almost 50 percent more than
nonprofit problem HHAs.

Our sample providers received more than $440 million in 1995. This is almost 8 percent of
the total reimbursement in the ORT States for home health services, even though the number
of providers represents only 2 percent of the total number of HHAs in these States.

HHAs in ORT States mirror the nation

Thirty percent of all Medicare-certified HHAs are located in ORT States, and they receive
almost 40 percent of all Medicare payments for home health services. Despite the fact that




     ’ These totals do not include total dollar amounts for some of the chain providers, but rather the individual
agencies. Furthermore, these represent total expenditures and is not intended to imply that all of the payments
were inappropriate.


                                                                                                                                                              6
they represent a disproportionate share of the national figures, their per patient statistics
mirror those for all HHAs.

                                                                                                              VISITS AND REIMBURSEMENT PER PATIENT
                                                                                                                              1995
                                                        100


                                                            80


                                                           60


                                                           40


                                                           20                                                                                                                                                                                                                           $looo

                                                                                                                                                                                                                                                                                                                                 ORT States
                                                                 0                                                                                                                                                                                                                      $0
                                                                                                                Visits per Patient                                                 Reimbursement per Patient                                                                                                      gg Nationwide



Although the ORT States are some of the largest in the nation, they represent a variety of
characteristics. For example, Texas is the State with the largest number of HHAs, highest
Medicare expenditures, and greatest number of total visits. While Texas also ranks near the
top in reimbursement and number of visits per patient, several non-ORT States exceed it. In
comparison, Florida is slightly above the national average in these categories. California is
close to the national average in reimbursement per patient and below the average in visits per
patient. New York and Illinois are considerably below average in both of these categories.
See appendix A for more detailed State rankings.
                                                                                                                                         .   .                                                                                                                                                                                                                                                                 .
                         . . . . . ...
:.i:.:.:.:.:.:.:.:.~:.: .A......    . ...A.......>.
                                         . . . . . ..A..>...,.........i,..,.....,.,,,,,,,.......,,,,,,,....,.,,.,,.,......,,,,,,,,....           I,>_.......... . . . . . . . . . . . . . . . ..I.........
                                                                                                                                                                                               .. . ,../i.   ,,,,,......
                                                                                                                                                                                                              . . . . . . . . . . .,_...,,.,,,
                                                                                                                                                                                                                                       . . . . . . . .,.. . . . ./i.. .....,A.. ..A. ..a....A. ..... ..,.. A.. A.. I ..I............C.,...A.... ‘,.,‘,‘,.,‘,‘,.,)):.:..,:.: ..,.,:.,._.((....(....,.,.(,.,.((,.,.....,.




            Problem home health agencies share ownership and operational characteristics that
            can thwart overpayment recovery and undermine sanctions


Most problem home health agencies are closely-held corporations whose owners are
involved in related organizations and complex business relationships

Problem HHAs are typically for-profit corporations owned by one, two, or, at the most,
five individuals. Almost 40 percent of the HHAs in our sample are family-owned, usually
by husband and wife teams, Many others are owned by siblings, a sole individual, or
two unrelated persons. While many of these closely-held corporations are simple “mom and
pop” operations, their annual Medicare revenue ranges from $50,000 to as much as
$33 million.

For the most part, the owners of these HHAs are neither health care professionals nor do
they have any prior health care business experience. In fact, of the 31 sampled providers for
whom ownership background information is readily available, only 14 have an owner who is
a health care professional. This is usually a nurse. Those owners who have previous health


                                                                                                                                                                                7
care business experience usually gained it at another problem HHA. More commonly the 

owners came to home health from such unrelated businesses as investment banking, trucking, 

real estate, accounting, the beauty industry, and even jai alai. 


More than half of the problem HHAs have ownership interests in related companies which do 

business with the home health agency. The related companies frequently own the office 

space and lease it to the HHA. Some exist merely to provide the HHA with office 

equipment or lease automobiles for the owners’ use. Separate but related companies also 

provide billing, consultant, and/or administrative services to the HHA. 


It is not unusual for owners of problem agencies to have links with other HHAs and 

questionable relationships with physicians. Nearly one quarter of the owners in our sample 

own other HHAs, while another quarter have informal links with other HHAs. Fiscal 

intermediaries have identified numerous situations where a problem HHA has sold patients, 

shared employees, and used the same referral physicians. They have also discovered 

potential kickback situations where referring physicians routinely “rubber stamp” plans of 

care for one or more problem HHAs. 


During the course of our inspection, we identified several situations where the owners of 

problem HHAs are involved in other businesses which they did not disclose as related 

organizations for Medicare reimbursement purposes. These businesses included durable 

medical equipment, health consulting, board and care facilities, hospices, retirement homes, 

and nurse registries which may be providing services directly to the HHA or acting as 

referral and recruitment sources for the HHA. 


The complex web of interrelated businesses enables the owners of some problem HHAs to 

maximize their Medicare reimbursement while claiming that the HHA itself barely breaks 

even or operates at a loss. Some owners receive full-time salaries from the HHA despite 

having ownership interest and concomitant responsibilities in other companies. Others may 

be paid twice for the same service, as in the case of HHA owners who also own board and 

care facilities. The HHAs are paid to provide home health aide services to the board and 

care residents while the board and care facility receives per diem that is intended to include 

aide services. Still others may own property or equipment that is worth far less than the 

amount they are charging the HHA and the HHA is reporting on its cost report as a 

Medicare patient-related expense. (See appendix B for an illustration of these issues.) 


The owners of problem home health agencies frequently rely on family members and
consultants to help them run the agency

Problem HHAs typically employ or contract with relatives to serve in key positions. More
than half of the HHAs in our sample paid spouses, siblings, children, nieces, nephews,
and/or in-laws to perform services for the HHA. One-quarter of the agencies have 4 or
more relatives who serve as owners and employees and 4 of the agencies employ, or contract
with, 10 or more family members.




                                                8

Family members rarely have any health care experience. Rather, they come from such 

diverse backgrounds as military service, engineering, and teaching. We also noted that 

several family members were college students with no prior work experience. 


Some relatives are on the HHA’s payroll but perform little or no work. One HHA, for 

example, contracted with the owner’s nephew to maintain the agency’s computers for 

$250,000.    The nephew was a full-time college student at the time, and his services were not 

commensurate with the amount of money he was paid. In another situation, the HHA’s 

payroll included three relatives. The checks that were issued to these relatives were not 

cashed by the relatives but instead were returned to the agency and cashed by the HHA’s 

owners. These relatives were “ghost employees” whose existence allowed the agency to 

claim costs that were never really incurred. 


While many consultants provide valuable services for start-up agencies, a few have earned 

their reputations as inside experts who can help HHAs “maximize their Medicare 

reimbursement. ” They claim to have intimate knowledge of each fiscal intermediary’s 

operations and promise to “work the system” to increase the HHA’s reimbursement rate and 

the owner’s compensation allowance as well as to insulate the owner from personal liability. 


Three-fourths of the HHAs in our sample use management or reimbursement consultants who 

specialize in home health. We identified 13 consultants who each work for 2 or more of the 

problem HHAs in our sample. We were able to ascertain that nearly half of these 

consultants were former fiscal intermediary, State agency, or HCFA employees. 


Following the advice of these consultants, problem HHAs realize even higher reimbursement 

than their counterparts. For the sampled HHAs, reimbursement per beneficiary was more 

than 20 percent higher when 1 of the 13 consultants was involved ($7042 vs. $5787). These 

HHAs also consistently make exorbitant claims for administrative overhead, such as owner’s 

salary. For example, one HHA claimed $200,000 salaries each for the husband and wife 

owners, plus an additional $100,000 for their daughter owner. Another claimed a total of 

$350,000 for husband and wife owner salaries. 


Use of these consultants is not always a “guarantee” of success. Each of the five HHAs in 

our sample that was involuntarily terminated based on an expanded certification survey had 

contracted with one of these consultants. 


Relying almost exclusively on Medicare for income and assets, entrepreneurs are able to
open and operate home health agencies without fixed assets or startup costs

Problem HHAs rarely treat non-Medicare patients. For more than three-quarters of the
sampled providers, greater than 90 percent of their income is derived from Medicare. In
Texas, where there has been a marked increase in the number of HHAs in the last few years,
the sample HHAs average an astonishing 98 percent of income from Medicare. Few, if any,
of them have contracts with health maintenance organizations or Medicaid, both of whom
frequently restrict the number of home health services, limit payment, or more closely
monitor services than does Medicare.


                                               9

If it were not for Medicare accounts receivable, problem agencies would have almost nothing
to report as assets. Agencies tend to lease their office space, equipment, and vehicles. They
are not required by Medicare to own anything, and they are almost always undercapitalized.
On average, cash on hand and fixed assets amount to only one-fourth of total assets for the
HHAs, while Medicare accounts receivable frequently equal 100 percent of total assets.
These agencies are almost totally dependent on Medicare to pay their salaries and other
operating expenses.

For a home health agency, there are virtually no startup costs or capitalization requirements.
In many instances, the problem agencies lease everything without collateral. They do not
pay user fees to Medicare, they do not reimburse Medicare for the cost of the State agency
survey, and they do not even have enough cash on hand to meet their first payroll.

More than half of the agencies in our sample claimed that they lost money. The average net
income was less than $7500. So why and how do they stay in business and why do they
keep expanding ? Because they are able to manipulate the Medicare cost reimbursement
system and provide the owners and other principals with personal income that far exceeds the
concept of “reasonable cost. ”

The owners and principals of problem home health agencies can continue to receive
Medicare money, because HCFA has few preventive measures

Problem HHAs can accumulate substantial and uncollectible Medicare overpayments. When
overpayments are determined by the fiscal intermediary, or even before it has a chance to do
so, many HHAs file bankruptcy or merely cease business to avoid the debt. After these
HHAs declare bankruptcy or disappear, Medicare has little chance of recovery because the
debts apply only to the defunct corporation, not to individual owners or their other
businesses.

Approximately one-third of the agencies in our sample receive periodic interim payments
(PIP) from Medicare. For those HHAs, payments are made on a regular basis without
regard for the services they provide or the claims they submit. The PIP payments are
reconciled against actual expenses when the cost report is submitted, which may be as long
as 5 months after the end of the HHA’s fiscal year. The other agencies in our sample
receive interim payments based on the claims they submit during the course of the year.
These are also reconciled when the cost report is submitted. Under either payment method,
overpayments can accrue. The PIP method, however, leaves the program more vulnerable
because there may not even be claims to substantiate the payments that have been made.

One-third of the sample HHAs incur significant overpayments every year. These
overpayments range from $100,000 to several million annually. For the providers in our
sample on PIP, the overpayments are greatest. In fact, seven of the PIP providers account
for $56 million in outstanding overpayments. In a 1995 report, the OIG noted that PIP
providers accumulate a disproportionate share of Medicare overpayments and recommended
that HCFA more closely monitor the PIP program and seek legislation that would eliminate it
entirely.


                                               10
The 60 HHAs in our sample have a combined outstanding Medicare debt exceeding $321
million. Of that amount, at least $63 million will never be recovered, because the HHAs are
no longer in business, have no assets, or have filed bankruptcy. Almost all of these HHAs
are repeat offenders, who maintain consistently high overpayment balances and regularly
request, and sometimes are granted, extended repayment plans.

The HCFA can terminate a problem provider, but like closing the barn door after the horse
runs off, the action comes too late to recover Medicare’s losses. Nine HHAs in our sample
have been terminated involuntarily, and two others had branches that were terminated.
Three providers, who were involuntarily terminated, left the program owing a total of
$47 million.

Owners of problem HHAs find ingenious ways to make money even when their businesses
are terminated. For example, one HHA profited by selling its patients to another HHA for
$1,000 each. Another sold its branches to its employees who then proceeded to obtain
Medicare certification.

Problem providers don’t let termination or bankruptcy interfere with taking advantage of
Medicare. Many reorganize and open a new HHA, often joining forces with key individuals
from other problem providers. Owners and key staff, especially nurses and administrators,
move from one problem provider to another, often bringing their patients and unscrupulous
practices with them.

Even when Medicare terminates an HHA, other HHAs owned by the same individual through
different corporations continue to operate. For example, the principals of one family-owned
HHA operate several related HHAs, each established as a separate corporation; one HHA
filed for bankruptcy without affecting the others. When Medicare terminated another HHA,
its owners simply discharged the patients and then readmitted them to another HHA they
owned in a city nearby.

Some problem HHAs simply cease doing business after receiving hundreds of thousands or
even millions in reimbursement, often without bothering to inform HCFA or the fiscal
intermediary. Still others undergo a change of ownership where the new owner does not
assume the prior owner’s assets or liabilities.

The HCFA does not require fiscal solvency through secured assets or surety bonding. This
leaves Medicare holding the bag when a problem provider goes out of business. Under the
Medicare conditions of participation, HCFA may require HHAs to meet “such additional
requirements (including conditions relating to bonding or escrow accounts, as the Secretary
finds necessary for the financial security of the program). . . . ” However, HCFA has not
enforced this provision.




                                             11 

  Expansion of the benefit and the lack of restrictions on certification have led to
  ever-increasing administrative problems with little prospect of mitigation


The number of agencies and Medicare costs have grown dramatically since 1989

In 1989, based on a lawsuit (Duggan v. Bowen), HCFA implemented regulatory changes that
expanded eligibility for home health services and eliminated the cap on the number of visits.
Since that time, the number of HHAs nationally has almost doubled. During the same
period, the percentage of beneficiaries receiving home health services has increased but not
nearly as significantly as the number of visits and reimbursement per patient, each of which
has more than doubled.

Certain States have expanded more than others. In Texas and California, the number of
Medicare-certified agencies has increased by more than 50 percent in just 2 years. In terms
of reimbursement, Texas has gone from approximately $750 million to $1.8 billion total
home health reimbursement and from $4300 in average per patient reimbursement to
$7100 per patient in the same time period. While California has had a similar growth
pattern, Texas has surpassed the other ORT States in each of these categories while still
serving fewer beneficiaries than either California or Florida.

Some States limit the number of HHAs, but Medicare costs still rise

In contrast to the uncontrolled growth in Texas and California, in New York and Florida the
number of agencies has grown by less than 10 percent. Since HCFA does not limit the
number of certified HHAs, controls are at the State’s discretion. Both Florida and New
York require new HHAs to go through a Certificate of Need process before they can be
licensed. Unfortunately, the mere existence of a Certificate of Need requirement does not
guarantee that all new HHAs are actually needed. In response to questions about the value
of the Certificate of Need, some of our contacts believe that it is “just another way for the
State to make money” without really addressing or controlling the need for new HHAs.

In Florida, because of the way the Certificate of Need is administered, the number of HHAs
continues to rise, albeit at a slower rate than in States without this requirement. New York,
on the other hand, decided to stop processing new HHA applications early in 1994,
effectively imposing an informal “moratorium” on new agencies.

One effect of limiting the number of new HHAs is that existing HHAs grow larger. For
New York and Florida, the two sample States with a Certificate of Need requirement, the
1995 average reimbursement per HHA was $3.3 million and $4.6 million respectively. The
next highest State averaged $1.9 million per agency.

Another effect in States which limit new HHAs is that the existing agencies have larger
beneficiary patient loads. In Florida and New York, for example, the average number of
beneficiaries per agency is over 900; HHAs in Texas average only 200 beneficiaries each.


                                              12
In States like New York and Florida, having fewer HHAs to monitor has made the fiscal
intermediary’s, HCFA’s, and the State agency’s oversight responsibilities much more
manageable. Despite their increased size, each HHA’s modus operandi remains the same so
the government and its contractors need not deal with all of the problems inherent in new
agencies, particularly ones that are just entering the business to “get rich quick.”

In States where the number of new HHAs has increased dramatically during the last few
years, fiscal intermediaries estimate that as many as 50 percent of the new agencies are
problem providers.

Problem agencies frequently exceed national and State averages in several areas

Compared to their respective States and the rest of the nation, problem agencies typically:

       (1)   have a higher average number of visits per patient, 

       (2)   receive higher average reimbursement per patient, 

       (3)   see more chronic patients, 

       (4)   are relatively newer, and 

       (5)   are located in dense population areas where few, if any, new agencies are needed. 


  b	   Problem H&Is perform significantly more visitsper patient.     Sample agencies ranged
       from as low as 20 visits per patient for the newest providers to as high as 285 visits
       per patient for older agencies. Forty percent of the problem HHAs exceeded an
       average 100 visits per patient. As shown in the following chart, problem HHAs
       routinely exceed the statewide average number of visits per patient:

         COMPARISON OF AVERAGE NUMBER OF VISITS PER PATIENT

                            Problem HHAs                Statewide HHAs
                CA                 89                           53

                FL                 87                           78

                IL                 73                           54

                NY                 61                           49
                TX                 143                          116


       According to HCFA data, problem HHAs significantly exceed other HHAs in average
       number of visits per patient even when case mix, based on age, race, primary
       diagnosis, and gender, is taken into consideration. Furthermore, three-quarters of our
       sample providers rank in the top third of the nation for total number of visits per
       agency. Almost half of the sample providers also rank in the top third for average
       number of visits per patient.




                                                13 

  b	   Problem HHAs have a higher average reimbursement per patient.    Nearly two-thirds
       of our sample providers have an average reimbursement per patient that is higher than
       the national average which is $4438. One-third have patients whose average
       reimbursement exceeds $7000, and six of them have average reimbursements that
       exceed $12,000 per patient. For six of the HHAs in our sample, their average
       reimbursement per patient grew between 150 and 340 percent in 1 year.

  b	   Problem HI&Is serve more chronic patients. The majority of the HHAs in our sample
       specialize in patients who are rarely discharged. Although these patients may need
       fewer skilled nursing visits, they may need routine visits by both nurses and home
       health aides for the rest of their lives. Diabetes and hypertension are two of the most
       common diagnoses for these types of patients.

  b	   Problem HHAs are newer.     One-third of the sample HHAs have been certified for less
       than 4 years.

  b	   Problem HHAs tend to be located in saturated markets. Nearly one quarter of our
       sample have solicited patients, swapped patients (ping ponging), sold patients or
       provided medically unnecessary services. Because they operate in markets where
       there are enough HHAs to serve the Medicare population, they use these strategies to
       enlist and retain patients. The fiscal intermediaries serving these HHAs have even
       received allegations that a patient does not need skilled nursing care, so the HHA is
       supplying someone to mow the lawn, shop, chauffeur, or keep the beneficiary
       company.

The lack of requirements for background checks, credit checks, and prior health care
experience allows anyone, even those with questionable pasts, to receive Medicare
certification

The current certification process does not take into account HHA owners’ credit and financial
history, criminal records, or past work experience. This allows certification to he granted to
just about anyone. Bankruptcies, unpaid Federal debts (including Medicare overpayments),
even criminal convictions (that are not specifically related to Medicare and Medicaid), do not
preclude individuals from obtaining Medicare certification for their HHAs.

By utilizing a readily available commercial database, we were able to determine that more
than one-third of the HHAs we researched had questionable backgrounds. We found
instances where the HHAs and their owners had filed bankruptcy, defaulted on loans, failed
to pay Federal or State taxes, and had been found guilty of criminal wrongdoing. Many of
these existed before the HHA became certified. For example:

  0	
       The owner of one of the HHAs in our sample, who was listed as a co-debtor on two
       Federal tax liens against a nursing service, opened another Medicare-certified HHA a
       few years later. The latter HHA went out of business in mid-1996 and did not inform
       HCFA, its fiscal intermediary, or the State agency. As a result, the HHA continued



                                              14 

        to receive Medicare checks, never submitted a cost report, and, a few months later,
        filed bankruptcy.

  � 	
        The owner of another HHA went bankrupt twice and had a felony conviction prior to
        opening the HHA.

Some fiscal intermediaries have begun using online services to verify information supplied by
HHAs. However, since HCFA does not preclude certification in these situations, any
negative information that is discovered is of limited value. At present, the most common use
of the online service is to identify undisclosed related organizations for cost report audit
purposes.

 Thorough review of cost reports and claims can uncover a wide variety of unallowable
 costs and noncovered services, but submission requirements and limited resources hamper
fiscal intermediaties ’ oversight efforts

Fiscal intermediary resources for oversight have not kept pace with the rapid increase in the
number of HHAs. In California, 80 new HHAs opened in a recent 4-month period, but the
fiscal intermediary’s oversight resources were not increased proportionately. In fact, their
resources for fiscal year 1997 were decreased. Furthermore, fiscal intermediaries are funded
to perform only a few on-site audits. For example, one fiscal intermediary is funded to
perform less than 12 percent of its home health agency audits on-site, while another is
funded to perform approximately 20 percent. The on-site audit is usually very limited in
scope, and less than 5 percent of all audits are comprehensive reviews of all the costs
claimed by an individual HHA.

  v 	 HHAs can receiveMedicare payments for 18 months or more before any improperly
        claimed costs are identified and disallowed by a fiscal intermediary. HHAs are
        required to submit cost reports within 5 months after the close of their fiscal year.
        This means that an HHA can operate for up to a year and a half before the fiscal
        intermediary has an opportunity to review costs and make adjustments. Some
        problem HHAs have billed and received large Medicare payments for 12 to
        16 months and then gone out of business without filing cost reports. When this
        happens, Medicare has no way to identify unallowable costs, let alone collect any
        overpayments. Three HHAs in our sample went out of business without filing cost
        reports. One of these had incurred $6 million in overpayments that are now
        uncollectible.

        When problem HHAs do submit cost reports, fiscal intermediaries frequently find
        significant unallowable costs during on-site audits. However, because the number of
        on-site audits is limited, we cannot measure the full extent of the problems. The
        following examples, which represent audit adjustments from our sampled providers,
        illustrate the types of adjustments that could be made only through on-site audits:

               Unreasonable Owner’s Comnensation: The allowable amount for owner’s
               compensation is based on the time and type of work that the owner does for


                                               15
the HHA. One HHA owner, who also runs a major home health consulting
business, claimed a full-time salary from the HHA. The owner of another
HHA is a full-time school teacher who claimed a full-time salary from the
HHA. Yet another owns a private duty nursing service, a retirement home, a
health care facilities construction company, a durable medical equipment
company, and an automobile rental agency and still claimed a $182,000 salary
from the HHA.

Undisclosed Related Organizations: These entities typically (1) lease office
space, equipment, or automobiles to the HHA, (2) provide financial,
management consulting, or maintenance services, or (3) contract with the
HHA to provide direct patient services or supplies. HHA owners profit
through their interest in the related organizations which they do not mention on
the cost report.

For example, one HHA had six or more related agencies that provided
everything from nursing services and medical supplies, to maintenance,
construction, and property leasing. None of the companies were disclosed on
the cost report even though they were owned by the HHA owner or his family.
In this agency’s case, the four principals claimed salaries of $152,000 each on
the HHA’s cost report. Another agency claimed costs for a medical supply
company whose address was actually a Seven-Eleven convenience store. This
medical supply company did not exist, and the convenience store was, in fact,
owned and operated by one of the HHA owner’s relatives.

Ghost Employees: To inflate the cost of providing patient care services, the
HHA maintains records that indicate salaries were paid to employees who do
not exist. In one case, the fiscal intermediary discovered that salary or
compensation checks were written to nonexistent employees, the checks were
cashed, and the money was returned to the owners.

Nonpatient-related Expenses: Because Medicare reimburses HHAs only for
the costs associated with patient care, some agencies lump nonpatient-related
expenses with patient-related ones in an attempt to bury the nonreimbursable
costs. For the HHAs in our sample, auditors have become aware of such
“buried” items as trips to resorts, the purchase of liquor for a national HHA
association meeting, promotional items such as T-shirts, home remodeling,
purchase of real and personal property, health club dues, and even
maintenance of a horse.

Discrepancies in Visit Counts: This situation has been discovered during
on-site audits, when there were no records to substantiate patient visits that had
been billed to Medicare. When this is discovered, the fiscal intermediary puts
the HHA on prepayment review. In response, one problem provider simply
increased claims volume to compensate for the increased denial rate.



                                16 

              Unreasonable Contractor or Related Organization Costs: Both of these
              practices are ways for owners of problem providers to maximize
              reimbursement. High payments to contractors can be an indication of
              kickbacks, while high payments to related organizations end up back in the
              owner’s pocket.

  F    By conducting on-site medical reviews, fiscal intermediaries can discover a variety of
      fraudulent and abusive practices that can’t be identified during routine claims
      processing. Fiscal intermediaries often uncover illegal or questionable patient-related
       practices during on-site medical reviews of problem providers. Many of these
       practices are discovered only during on-site reviews, because problem HHAs often
       know how to document claims to make them look legitimate. Some of the most
       common fraudulent and abusive practices include:

              billing for services not rendered; for example, padding visits,

              billing for noncovered services; for example, where the patient does not
              qualify because he is not homebound,

              providing services that are not medically necessary; for example, therapy
              services or durable medical equipment,

              favoring one or two chronic diagnoses from which the patients will never
              recover; for example, hypertension and diabetes,

              ping ponging; for example, sharing beneficiaries with other agencies, and

              using rogue doctors or nurses; for example, doctors who sign plans of care
              without seeing the patient or nurses who contract with several agencies and
              cannot possibly make all of the visits for which they bill, e.g., the full-time
              owner of 1 HHA who billed 32 visits in a single day through another agency.

       While on-site medical reviews can be invaluable oversight tools, problem providers
       know that limited fiscal intermediary resources mean there is little chance they will be
       selected for review. Also, since fiscal intermediaries notify providers well in advance
       of planned visits, problem HHAs have plenty of time to make sure that their
       “documentation” is complete. They know that fiscal intermediaries rarely contact
       beneficiaries for verification.

Under Operation Restore Trust, the fiscal intermediaries servicing at least two of the ORT
States have participated in HCFA regional office initiatives to conduct multidisciplinary on-
site HHA reviews. These reviews, which include medical, accounting, and certification
areas, have resulted in numerous investigations and terminations of HHAs that should not
have been certified in the first place. In California, 47 expanded surveys were conducted
and, as a result, 23 HHAs have been terminated or voluntarily withdrew from the Medicare
program.


                                              17
                       RECOMMENDATIONS

To protect the Medicare home health benefit, HCFA needs to develop and implement
additional program safeguards that would (1) strengthen it’s ability to identify problem
providers, (2) prevent problem HHAs from entering the program, and (3) prevent the
Medicare trust fund from incurring further losses due to the activities of problem
HHAs.

In order to accomplish this, HCFA should take administrative action or, if necessary, seek
legislative authority to:

       require that each HHA obtain a surety bond equal to the amount of anticipated
       Medicare billings during its fiscal year. Should the HHA’s claims exceed the amount
       of the bond before a cost report has been filed and audited, the HHA should be
       required to increase the amount of the surety bond accordingly. The cost of the bond
       should not be considered reimbursable for Medicare cost reporting purposes.

       require “user fees, ” so that new and existing HHAs are required to pay for their
       initial certifications, comprehensive on-site reviews, and recertifications. If this is not
       possible, we believe that the allocation of additional resources to the certification and
       monitoring effort by the fiscal intermediaries, State agencies, and HCFA regional
       offices will pay for itself, because it will substantially reduce or even eliminate the
       continued accrual of uncollectible overpayments as well as payments for noncovered
       and medically unnecessary services.

       require that the majority of the HHA’s principals have prior health care experience
       directly related to the provision of home health services in order to receive Medicare
       certification.

       develop a data bank of owners, principals, and other HHA officials and related
       organizations so that their activity can be monitored, tracked, and cross-referenced.

       require that all HHA owners and principals provide their individual Social Security
       numbers and Employer Identification numbers when they submit an application to
       become Medicare providers.

       prior to certification, assure that new HHAs are financially sound and have adequate
       fiscal recordkeeping capabilities and that their owners and principals are qualified and
       trustworthy. This should be accomplished through a comprehensive on-site review by
       an interdisciplinary team of auditors, medical reviewers, and State surveyors.

       refuse to enter into a provider agreement with any HHA whose owners or principals:

              owe money to the Federal government in the form of Medicare overpayments,
              tax liens, or unpaid loans;


                                                18
               have filed bankruptcy or have negative credit ratings;

               have prior criminal records; and/or

               have been associated with, or are the relatives of the owner of, a Medicare
               provider who was found to defraud, abuse, or otherwise misappropriate
               Medicare dollars.

  �     preclude the discharge of Medicare debts through bankruptcy.

We also reiterate our previous recommendation that HCFA should:

  � 	
        tighten controls over the PIP program, more closely monitor HHAs that are on PIP,
        and seek legislation to eliminate this method of reimbursement.

Proposed Legislation

The President has announced legislative proposals to fight fraud and abuse in health care.
Many of the provisions in the President’s “Medicare and Medicaid Fraud, Abuse, and Waste
Prevention Amendments of 1997” would strengthen HCFA’s ability to address our findings
regarding problem HHAs. Several of these provisions are also contained in Medicare anti-
fraud legislation that has been proposed by Congress. The President’s proposals include:

  b     denying participation in Medicare for any person convicted of a felony, 

  F     requiring providers to furnish Social Security and Employer Identification numbers of 

        all owners and managing employees prior to certification,
  b     collecting user fees to perform certifications and recertifications,
  b     excluding entities controlled by family members of sanctioned individuals,
  b     penalizing anyone who relies on sanctioned individuals to authorize or provide
        services,
  b     prohibiting providers from using bankruptcy to stay the recovery of overpayments or
        discharge Medicare debts,
  b     clarifying the definitions of homebound and part-time or intermittent services, and
  b     eliminating PIP through the implementation of prospective payment in the year 2000.

Agency Comments

We received comments on the draft report from the Assistant Secretary for Planning and 

Evaluation and the Assistant Secretary for Management and Budget. Based on their 

comments we modified the report to more fully describe recent anti-fraud legislative 

proposals which have been sent to the Congress by the President and to clarify that not all of 

the increase in home health services in recent years is the result of illegitimate billings by 

problematic providers. 


We also received comments from the HCFA Administrator. The HCFA concurs with the 

majority of our recommendations, although only partially with two of them that concern the 



                                               19
financial stability of HHAs. Furthermore, HCFA does not support our recommendation for
a moratorium on certifying new home health agencies until new program controls are put into
effect.

We continue to believe that the financial management integrity should be an important
criterion in certifying them as suitable for participation in the Medicare program.

With respect to a moratorium, HCFA states that it has the responsibility to establish and
implement adequate program requirements and safeguards and that if a home health agency is
able to comply with these requirements, it should be allowed to enter the program. We
agree that HCFA does have such a responsibility. We are also aware that numerous
legislative proposals similar to those we recommend in this report are now pending before
the Congress. If enacted, these proposals would greatly strengthen HCFA’s ability to curb
abuses. For these reasons, we have withdrawn our recommendation for a moratorium at this
time.

However, we remain very concerned about this program. Current program requirements are
woefully inadequate to prevent financially irresponsible or fraudulent home health agencies
from becoming Medicare providers. On the same day that we are issuing this report, we are
issuing another one that shows that, in four of the five States reviewed in this report, 40
percent of Medicare payments for home health should not have been made, resulting in
losses of approximately $2.6 billion over a 15-month period. We believe that Medicare
cannot continue to sustain losses of this magnitude. If, even after enactment of new
legislation and stronger administrative action, there is no major reduction of improper
payments, then more dramatic action will need to be taken by HCFA and the Congress.
This should include the establishment of strict criteria relating to the trustworthiness of
applicants, adequate resources to allow for a thorough review of applicants, and a concurrent
decertification of problem providers already certified in the program who are responsible for
a disproportionate share of Medicare losses. Under these circumstances, a brief moratorium
could be appropriate while HCFA tools up its review mechanisms and reexamines the
suitability of previously certified problem providers.

The full text of each agency’s comments appears in Appendix D.




                                             20 

                                APPENDIX                   A


The following 5 tables represent summary data of all home health agencies in all 50 States,
the District of Columbia, Puerto Rico, and the U.S. Virgin Islands. We obtained the
information from the HCFA Customer Information System. The five charts contain the same
information, sorted by five important variables. The ORT States are at or near the top when
looking at aggregate numbers of claims, total reimbursement, total patients, and total visits.
The ORT States tend to drop to average or below average, however, when looking at per
patient statistics.

NOTE: The five ORT States are shaded for emphasis.




                                            A-l
 HHA SUMMARY DATA -- STATES SORTED BY TOTAL REIMBURSEMENT
                          FOR 1995

               Total          I   Total                                         Total          1 Average Reimbursement 1 Average Visits        1




                                                       60,483 1          7,796,641                      $7,452                129
                                                                ^^ ’     7,374,113                      $5,969                124
                                                                        5,534,482                       $3,329                 56
                                                       94,108 1         4,946,663                       $3,385                53



II                        I
                                          I
                                                I 

                                                           _,
                                                       =- -9,
                                                                    ’   4,562;117          1
                                                                                                        $4,399
                                                                                                        $2
                                                                                                        _-,_987

                                                                                                       $4,707
                                                                                                             

                                                                                                             --       t      s-it
                                                                                                                              79
                                                                                                                                           II

                                                      J7,“rr            _I,/,     I,“,.,




                                                                .   ’   3,180,825                      $3,850
                                                                        3,579,627                      $3,757                 79
                                                      34,883            2,293,206                      $4,564                 66
                                                      49,829            1,854,381                      $2,953                 37
                                                           .-
                                                                        1,914,602                      $4,197                 57
                                                                        1,744,537                      $2,988                 38




                                                      35,640 I          1,739,504 1                    $2,429         I       49
                                                                                                                                          II

     NlC   ,   I IL,““J                               Ll,bj,        ,   I,JW,,L,,J         ,           W,b4/                  I" 

II                                                                                                                    I
                                                      19,195 1 	        1,211,596 1                    $4,055                 63


                                                                        1,410,561          I           $1,583         I       37
                                                                                                       $4,732                 66
                                                      11,960 1              787,453 1                                                     II

                                                                           817,159                     $4,169                65
                                     )7,869 1         17,524               748,666                    $2,705                 43
                                                      12,626               827,436                    $2,953                 66



                                     13,264 1                              415,050 1                  $4,540          I      79
                                                                                                                                          II




                                                      7,768 1             326,003                     $2,518                 42
                                                      1,974 1                   90,338                $4,800                 46
                                                            I
                                                                                10,207                $4.594                 60



                                                                A-2
           HHA SUMMARY DATA -- STATES SORTED BY TOTAL PATIENTS
                                 FOR 1995

                 Total                  Total               Total                Total            I Average Reimbursement I Average Visits        1
     State                        I




     MA
     TN                                                               ,     ~,           ,-   ,




     NC           468,223         1   $330,0 28,822 1       991146 1        5.534.482         1             $3,329                56
1I 1 MO
     NJ 1II
     GA           369.893
                  418 561 1
                  588:527 I           $293.786.448
                                      QlR
                                      $525,999,053- 1       98,482
                                                            95.9   1        4:188:451         1            $2,983                 43
                                                                180 1     101209,736 1                     $5,480                 106
II   LA      I
             I     ---7---,
                  897.294 1           Qmi-(IL.
                                      _-_  518,153          94,108 1 4,946,663 1                           $3,385           I     53          II
                                           604,845 1
                                      ___-,_                84,095 1 12.064.526 I-                         $7,808                 143
     AL      1    549,376 1           $453,834,415          81,565 1        9:766:686         1            $5,564                 120
     VA      1    31X987
                  __-,___         I   $245,974,060          72,8 29 1       3,758,603         1            $3,377                 52
                  372,097 1           $312,954,991          71,141          5,592,118                       i4.199
                                                                                                              ,___                19
11 OK 1           495.363 1           $450
                                        --, 74’.J,746


                                                                                                                            E
                                                            60,483          7,796,641                               I.452
IIII MS
     KY I!        334,927 1
                  422495          I
                                      $211,726,968      1   59,6213         3,977,675                               ‘,551
             I     .__, ._-           $355,159,176 1        59,503          7,374,113                               ,969
11 CT        I    267.681)
                  ~- ,--- 1           $371 695.871 1
                                      __._(.                57,721        4.562.117
                                                                            ’                              T4,707                 79
     MD           163,397             $147,-1:22,944 1      49,829 1        1,854,381 1                    $2,953                 37
     SC           216,685             $182,528,625 1        47,4104 1     3,180,825 1                      $3,850                 67
     WI           183,638             $127,119,783      1   46,720 1      1,981,404 1                      $2,721                 42
     WA           167.805         I   $137248,931       1   45.926 1  ,          ,
                                                                          1.744.537 1                      $2,988                 38
II AR 1           273,556 1           $l70,554,835      1   45,393 1      3.579.627 1                      $3,757                 79
II PR I           184,272 1            $60375,397       1   38,332 1        (410,561          1            $1,583                 37
      IA     1    144,491 1            $86,559,442      1   35,640          1,739,504                      $2,429                 49
     co      1    160,774 1           $159,199,686      1                                                                   !                ll
                                                            34,883        2,293,206
11 AZ 1           124.257 1           $141.433.666_ I       33,697        1.914.602
     MN           1131175              $86,935,663          31,7:
     KS           138,376             $111,786,864          29,900 1      1,821,852 1
     OR           112,281              $90,4f 51,850    I   29.338 I                 ’                     --,---           I    --
     WV           155,911              $84,849,043          28,151 1      1,542,992 1                      $3,014           I    55          II
     ME           112,663              $78,920,340          21,637 1      1,504,263 1                      $3.647                70
     RI            92,245              $77,826,643          19,1!35 1     1,211,596 1                      $4,055                63
     UT           106.5xn             $118,925,525      1   19,147 1      1.998.036 1                      $6.211           I    -_.
                                                                                                                                 104

                                                                                                                                             II
                              I                                                                            .-7-m.



     NH      1     95,963 1            $56,346,863      1   17,558 1      1:162:998 1                     $3.209            I    66
     NE      1     69.127 1            $47.397.869      1   17.5:




                                                                    A-3 

              HHA SUMMARY DATA -- STATES SORTED BY TOTAL VISITS 

                                  FOR 1995 





                                                                                                           $6,744                I   119
                                                                                                           $7.808                    143    II


                                                                                                           $5,480                    106
                                                                                                                                            II
                                                                                                                                            II
                                                                                                                                       .-
                                                                                                                                 I

                                                              81,565 1           9,766;686        1        $5:564                I   120




                                                                                 7,374,113 1           $51969                    I   124    II
                                                                                     ’            I    __,__
                           7 1   $312,954;991 1              711141 I           5,592,118         1    $4,399                        79
     NC          468:i23         $330,028,822                99,146 1           5,534,482 1           $3,329                         56
     MO          438,561         $318,538,153               94,108 1            4,946,663 1           $3,385                         53
     CT          267,680         $271,695,871               57,721 1            4.562.117 1           $4,707                         79
     NJ          369,893         $293,7E16,448 1            98,482 1            411881451 1           $2.983                         43
     KY          334,927         $211,726,968 1             59,623 1            3,977,675 1           $31551                         6711
     VA          318 982    I
                                 $345 974 nhn I
                                 “.-.-,-.        .,-..-
                                                            77 wa  I
                                                              ,I,“-l
                                                                                174~ c;n~ I
                                                                                .,,,_IY,““d
                                                                                                      421277
                                                                                                      WJ,J,          I               52
     AR   1      273,556 1       $170,554,835 1             45,393              3,579,627             $3,757                         79
                                                            47,404              3,180,825             $3.850                         67




                                                                                                                                      .-


                                                                                                                                            II
                                                                                                                             I

                                                13,666 1    33,697 1            119141602 1           ii41197                I       57
                                                                                                      $21953
                                                                                                      $3,739
                                                                                                                                     371
                                                                                                                                     61
                                                                                                      $2.988                 I       3x     II
                                                                                                      $2:429                         4911
II   ME   1      112,663 1           $78,920;340 1          21,637
                                                              '    1            1,504,263             $3,647
                                                                                                      $3,014                         55
                                                                                                                                     70
     PR          184,272             $60,675,397 1          38,332 1            1.410.561             $1.583                         37
     MN          113,175            $86,935,663             31,721 1            1,342;319 1           $2:741                         42
     RI           92,245            $77,826,643             19,lS15 1           1,211,596 1           $4,055                         63
     NH          95,963             $56.346.863             17.558 I
                                                            291338 I            1.162.998 1
                                                                                l-109.631 I           $3.209             I           hfi
                                                                                                                                     --     II
                                                                                                                                            II
                                                                                              I       --      7---




     OR          112.281    I       $90,461;850 1                                                     $3.083             I           3x
II   NM   1       88,288 1          $63,197,547 1           15,760 1            110441356 1           s4:010             I
                                                                                                                         !
                                                                                                                                     66
                                                                                                                                            II
     ID
     VT
                 68,267
                 76,165
                                    $56,047,308 1
                                    $37,284,37x '     _,-
                                                            13.4413 1
                                                                    '
                                                            17 67~. 1
                                                            -I,vIy
                                                                                     877,159 1
                                                                                     II
                                                                                     "27,436
                                                                                                      $4,169
                                                                                                      $2,953
                                                                                                                                     65
                                                                                                                                     66
                                                                                                                                            II
     NV          43.171
                  ~~~               $56.590.'
                                    _mm,_--7722             11,960                   787,453          $4,732                         66
     NE          69,127             $47,397,869             17,524                   748,666          R? 7114
                                                                                                      -_,._I
                                                                                                                         I
                                                                                                                                     A?
                                                                                                                                     .<

     MT          46,152             $32,342,351             10,351                   540,432          $3.125
                                                                                                      .~,                            52
     DE          38,376             $28,865,907                  9,843               478,895          $2,933             I           49     I
     WY          23,882             $23,883,264                  5.261               415 nsn
                                                                                      .__,I__         $4 5AO             I           70     II
     ND          34,782             $20,619,203                  8,485               382,079          $2,430             I           45
     SD          32,855             $19,557,153                  7,768               326,003          $2.518                         42     II
     DC          21,029             $21,439,998                  6,717               258,496          $31192             I           38     II
     HI          18,207             $20,154,084                 4,702                244,968          $4,---
                                                                                                        I286             I
                                                                                                                         I           --
                                                                                                                                     57     II
     AK           7,638                     $9.475.697               1.974               90.338       $4.800             I            .-    II
     “1             fz<c;                                                                                                I
                                                                                                                                     46
                                             $780,953 1                '170 1             lo:207 1    i4:594                         60




                                                                          A-4
HHA SUMMARY DATA -- STATES SORT‘ED BY AVERAGE REIMBURSEMENT
                     PER PATIENT FOR 1995

          Total                   I       Total                       1    Total   1               Total            1 Average Reimbursement I Average Visits
   “L&.&IClaims                       Reimbursement                       Patients                 Visits                   per Patient        per Patient
 II LA          I        897.294 1
                           I~~
                                      $656.604.845 1 X4 095
                                          ..-     ~,..      ,-   .- 12,064,526
                                                                           -    .,-              $7,808                                     143
      OK                 495,363      $450,743,746       60.4183 ,   7.796.641
                                                                       ,   ,   ,                 $7.452                   I                 129
 iiaijii*g$
  ..s::.:        ~~~i:~~~~~~~~~~ ~~;~~~~~~~~~~~~~~~~
      .,..,.,.j,.....,.,
                 .,..                              ji.j~~~~Biiiii~,i~~~~~R:~~~~~~~~~
                                                                                :ir:iii-iii-;:i,~~~:i:.ii~~:a9l’i.iiiiiiiiiiiiiiiiii~
                                                    ...... ...A                 ..,,......
                                                                                      .:; ,....
                                                                                             .\.:..........
                                                                                                      I,.,......,,.... ..  ... ........... .....
      TN                 741,475      $747,043,282      110,771     13,157,404                   $6,744                                     119
      UT                 106,580      $118,925,525        19,147     1,998,036                   $6,211                                     104
      MS              422,495             $355,159,176                     59,503                7,374,113                   $5,969                  124
      AL              549,376             $453,834,415                1    81,565 1              9,766,686          1        $5,564
                                                                                                                             $5 480
                                                                                                                                                1
                                                                                                                                                I
                                                                                                                                                     120
                                                                                                                                                     106
                                                                                                                                                               IIII
      AK                 7.638                   $9.475.697                     1.974        I             90.338 1          $4.800    ,        I    46        II
                                                                                                                                                               ,I
 II   NV
      CT
            1           43,171 I
                      267,680             __.
                                          771
                                                $56,590,722
                                                  _,___,_
                                                    h9T X71_
                                                                      1
                                                                      1
                                                                           11,960
                                                                           _57 ,721
                                                                                .
                                                                                                      787,453
                                                                                                 4,562,117
                                                                                                                             $4,732
                                                                                                                             $4,707
                                                                                                                                                     66
                                                                                                                                                     79
                                                                                 194             11.231.546                  $4.696                  93


                           656 1              $780,953 1                      170 1                        10,207 1          $4,594                  60
 II co
    v1 !               160,774            $159,199,686                     34,883 I              2.293.206 l                 $4.564             I    66
                                                                                                                                                               II
                                                                                                                                                               II
    WY                  23,882                  $23,883,264                    5,2..         ,         ._- ,___ ,            _ .,_ .            I
      IN              372,097             $312,954,991                     71,141 1               5,592,118         1        $4,399             I    79        II

 II   AiT
      HI
      .--   1           - ,-- I1
                       174757
                       -18,207            6141
                                           - -,AZ?  --- 1
                                                 "-(hhh
                                          _$20,154,084  1                  71697
                                                                            4,702
                                                                           -I).                   1,914,602
                                                                                                    244,968
                                                                                                      877.159
                                                                                                                             $4,286
                                                                                                                             $4,197
                                                                                                                             $4.169
                                                                                                                                                     52
                                                                                                                                                     57
                                                                                                                                                     65
      ID                68,267                  $56,047,308                    13,4143 ,                  ,~~.               _ ,~~
    RI                  92,245                  $77,826,643                19,195 1               1,211,596 1                $4,055             I    63
    NM                  88.288                  $63.197.547                15.760 1               1.044.356 1                ed nln
                                                                                                                             .+    .,“..-
                                                                                                                                                I
                                                                                                                                                     hh
                                                                                                                                                     YI        II
                                                                                                                             $3,850             I    67
                                                                                                                             $3.757                  79        II


                                                                                                                             V”,Y,

                                                                                                                             RZ 647
                                                                                                                                            .
                                                                                                                                                I


                                                                                                                                                I    713
                                                                                                                                                                I
                                                                                                                                                               II 



    MO                438,561             $318,538,153                     94,108                 4,946,663                   $3,385            I    53        II
    VA                318,982             $245,974,060                     72,829                 3,758,603                   $3,377                 52
      NC              468,223             $330,028,822                     99,146                 5,534,482                   $3,329                 56
      NH               95,963              $56,346,863                     17,558 ’   I”_         1 167 998 I
                                                                                                  _,___,      __-             w 309
                                                                                                                              I”,___            I    hh
                                                                                                                                                     __        II
                                                                                                                                                I


      OH               642,806            $466,023,099                         121 I,
                                                                          145,;-_                 777n724
                                                                                                   ,. _,._ 
        I         $3,198            I    53
      DC                21,029                  $21,439,998                     6,717 1               258,45                  $3.192                 38         I





                       167,805 1          $137,248,931                1    45,926 1               1,744,537 1                 $2,988                 38
                                                                                                                                                                II



                                      $37,284,27q                              12,626 ]                827,436 1              $2,953                 66
                                                                                                                                                                II

                                                         ,119,783 1            46,720             1,981,404                   $2,721                 42
                                                                               17 524                  748,666                $2,705                 43
                                                                                      lh8              ‘32h M?                m51x                   42




                                                                                            A-5 

           HHA SUMMARY DATA -- STATES SORTED BY AVERAGE VISITS
                          PER PATIENT FOR 1995

                                                                  1 Otal            Total         Total            Average Reimbursement           Average Visits
                   I   Llalrns                         Reimbursement               Patients       Visits                 per Patient                per Patient
 II LA             1            897 394                      $656,604,845           84,095      12.064.526                  $7.808                      lA?




                                                                                                           ‘86 1            $5,564             I        120
                                                                                   110,771 I    13:157.404 I               $6.744                       114          II




                                                                                                                           $6,211              I        104         II
                                                                                                                                                        79
                                                                                        51 1    3,579,627
                                                                                                  415,050     1            $4,540
                                                                                                                           $3,757          I            79          II




                                                             Y                                                                   3.850     I                        II
II VT
   ~~ i                                            I
                                                                                                                                                        67
                                7hIhS



     NV        1 


                                _-,_--
II co~~i                    lfirl774               I
                                                                                                                                                        __
                                                                                                  877,159 1               $41169           I            65          II
                            ---,-,”                          Y                                                           $3,739                         61
II   ~~~
     VT        i
                                                                                        0          10,207                $4,594                        60
                                                                                        17      1,914,602                $4,197                        57
                                                             $330,028,822     1    99,146       5.534.482                $3.329




                                                                                                                                                       _-
                                                                                                                                           I           52           II
                                                                                   10,351 1      ‘540,432                $3,125                        52
                                    -,
                                                                                                     ,                   __,_.



                                                                                  126,675 1     6,268,031                $3,694                        49
II DE~~i                    38         376         I         ’                                   478,895                 $2.933                        49



     AK                         7,638                            $9,475,697         1,974         90,338                 $4,800                        46
     PA                 921,427                         $697,116,831              223,913      10,108,911                $3,113                        45
     ND                     34,782                           $20,619,203            8,485         382,079                $2,430                        45
     NE    I
                            69
                            v,,Ie,     177               ‘647.39; 1,869 1          17,524 1      748,666 1               $2,705                        43
     NJ 1               369,893 1                       $l!93,786,448              98.48 2 1   4,188,451     1           $2,983                        43
     SD    I             32.855
                            ,~~. 1                       9
                                                         319,557,153               7,768          326,003                $2,518                        42
     MN    1            113,175 I                            $86,935,663          31,721        1,342,319                $2,741                        42
     WI    I            1x1 h?R I
                        -   -   -    , -   -   I        QI27,119,783
                                                        v.                        46,720       1,981,404                 $2.721                        42
     OR                 112,281                              1;90,461,850         29.338       1,109,631                $31083                         38
     DC                  21,029                              $21,439,998            6.717        258,496                $3,192                         38
     WA                 167,805                         $137,248,931              45,926       1,744,537                $2,988                         38
     MD                 163,397                         $147,122,944              49,829       1,854,381                $2,953                         37
     PR                 184,272                              $60,675,397          38,332       1,410,561                $1,583                         37



                                                                                        A-6
                       APPENDIX                        B





           ACOMPLEXCORPORATEWEB 




                                                       Own CDE Home
                                                       Health
                                                        TERMINATJZD
                                                       -----


Own a medivan                                                       Owners came fern
mmpany                                                              XYZ Home Health
                           Owners: Husband, wife
                                   and three friends                 TERMINA’IED

                           Hired relatives




                       SAMPLEHomeHealth


  Uses consultants 	       Contracts with                 Referring physicians
                           similar therapy                refer to other
                           companies                      problem providers




                             IJK 
                          LMN 

                             Home Health 
                  Home Health 





                                   B-l
                               APPENDIX                     C

The OIG, in conjunction with other Federal, State, and local law enforcement agencies, has
conducted numerous successful fraud investigations and audits regarding the home health
benefit before and during Operation Restore Trust. A synopsis of some of the cases that
were completed during the past 2 years follows. The summaries are in no particular order.
They represent cases that were not included in our sample of 60 problem home health
agencies.

b	     An employee of an HHA in Missouri was sentenced to 21 months imprisonment and
       2 years of probation and was ordered to pay $6000 in restitution after pleading guilty
       to making false Medicare claims. Over a 2-year period, the employee misrepresented
       herself as a licensed social worker. The HHA owner allowed the employee to
       perform psychiatric services on nursing home patients, but billed Medicare as if the
       owner had performed the services. Overpayments amounted to $23,000.

b 	    The co-owner of a Washington D.C. HHA was sentenced to 27 months in prison and
       ordered to pay full restitution of $100,000. The HHA defrauded the Medicare and
       Medicaid programs by billing for 1450 skilled nursing visits in a lo-month period for
       which there were neither time slips nor nurses’ notes. It also billed for hospitalized
       patients. Another co-owner was also convicted disappeared after escaping from a
       detention center assignment.

b	     The former owner of a Texas HHA was sentenced to 27 months incarceration after
       pleading guilty to presenting false claims to Medicare. The owner was indicted for
       billing for visits which the HHA did not make. This combined with the owner’s prior
       State conviction for embezzlement led to the lengthy sentence. The HHA billed for
       $49,000 in fal se claims during the first 6 months of business.

b 	    Two owners/operators of a Las Vegas HHA         pleaded guilty for attempting to defraud
       the Medicare program. The owners tried to       set up an Arizona HHA by offering a
       physician an arrangement for compensation,       They agreed to hire the physician’s
       husband in exchange for Medicare referrals.      The owners also submitted false
       information during the Medicare certification    process.

F 	    The owner and owner’s brother/employee of a Texas HHA agreed to pay $20,000 to
       resolve civil liability for submitting fraudulent Medicare cost reports. They conspired
       to include false expenses for medical supplies, office supplies, and automobile leases
       on the cost reports. The brother was president of a medical supply company that sold
       products to the HHA at a 100 percent markup. The brother also altered invoices for
       supplies that weren’t purchased and fabricated automobile lease contracts from
       vendors who did not lease automobiles.

b	     In Utah, HCFA obtained $149,490 from an asset seizure related to an earlier civil
       judgment against the owner of nine HHAs in seven States. The owner had pleaded


                                             C-l
      guilty to criminal charges related to false claims, kickbacks, and income tax fraud.
      The owner set up a billing company for the HHA without revealing the relationship
      between the two companies, claimed costs for ghost employees, paid kickbacks, and
      omitted income on tax returns for 1990 through 1994. The Medicare overpayment
      totaled $3.5 million. Sentencing will be in June 1997.

F	    The owner of two Texas HHAs pleaded guilty to one count of making false
      statements in a Medicare cost report. Charges against the spouse and son were
      dismissed. The owner agreed to pay $794,700 in restitution and to forfeit the
      building housing one of the HHAs. Sentencing is scheduled for May 1997.

F 	   Both the president and administrator of a California HHA pleaded guilty to fraud and
      conspiracy in a Medicare scheme. Over a 17-month period, they submitted false
      claims totaling up to $2.5 million, paid kickbacks for Medicare referrals, created
      fraudulent medical records documenting home visits, and submitted false cost reports.
      Altogether the two had billed Medicare more than $9.9 million for more than
      88,900 visits to 680 beneficiaries, some of whom were deceased, and were paid
      $5.6 million by Medicare. The president did not have a health care background, but
      was instead a former nightclub owner. The president started the agency with a
      registered nurse friend who left soon after Medicare certification. The administrator
      was also a former nightclub manager.

b	    The former owner of a Michigan HHA pleaded guilty to defrauding the Medicare
      program. The owner failed to disclose related organizations on the cost report and
      lied during the certification process, saying that the agency had a medical director.
      Medicare paid the agency a total of $3.4 million.

b 	   The owner/president, the vice president, and the risk manager for a Georgia HHA
      were sentenced to Medicare, Medicaid, and other fraud. The founder and CEO, who
      pleaded guilty to charging Medicare and Medicaid for campaign contributions, ghost
      employees, and personal vacation trips, was sentenced to 33 months incarceration
      followed by 200 hours community service. He also was fined $25 million and
      ordered to pay $11.5 million in restitution. The vice president was sentenced to
      151 months incarceration and 3 years of probation, fined $75,000, and ordered to
      repay $710,000. The vice-president was convicted of making false statements about
      salaries for ghost employees and a related organization, converting worker’s
      compensation premiums to personal funds, using Medicare funds to support a
      consulting business, embezzling employee health insurance and benefit plan funds,
      committing bank fraud, and laundering money. The risk manager was sentenced to
      97 months incarceration and 3 years of probation after being convicted of mail fraud
      and conspiracy to defraud the Medicare and Medicaid programs. The risk manager’s
      consulting business was sentenced to 5 years of probation, fined $250,000, and
      ordered to pay restitution of $710,000.




                                            c-2
F	    The owner of a now-defunct HHA was arrested in Texas after being indicted for
      charges related to Medicare fraud. The owner had written off more than $3.5 million
      in fraudulent expenses in cost reports from 1991 through 1994.

F 	   An accountant pleaded guilty to submitting fraudulent cost reports to Medicare. A
      joint investigation by 01 and the FBI led to a negotiated plea by the accountant. He
      agreed to cooperate with the Government in investigating the HHAs involved. One
      HHA owner reported being approached by the accountant with a scheme in which
      employee bonuses would be counted on the cost report and then kicked back to the
      owner.

b	    A Michigan HHA owner was sentenced to 5 months house arrest and ordered to pay
      $18,000 for h’is part in a Medicare fraud scheme. The owner sold the HHA to
      another HHA, but all documents relating to the sale and employees were backdated.
      The backdating allowed the acquiring HHA to bill Medicare for all care provided by
      the original owner’s HHA, thereby covering all acquisition costs. In addition, the
      original owner received a salary of $5,000 a month, although the owner did not
      perform services commensurate with the payments. This salary was charged to
      Medicare.

b 	   A Missouri HHA owner/operator was indicted for mail fraud, forgery, and Medicare
      fraud. The former owner allegedly submitted false statements to HCFA to obtain a
      Medicare provider number. Between 1991 and 1994, the owner used the provider
      number to accrue $1.5 million in Medicare overpayments. The owner has also been
      charged with submitting inflated expenses on cost reports and forging a physician’s
      signature in order to receive Medicare payments totaling $100,000.

b 	   The owner of two Pennsylvania HHAs was sentenced to 2 years probation, assessed
      $50, and ordered to perform 100 hours of community services. The owner submitted
      claims for personal expenses, such as hotel stays, meals, flowers, clothing, and
      placing her husband and nanny on the company payroll. Because of the owner’s
      financial situation, no civil action will be taken. However, on the basis of a Medicare
      carrier review, $300,000 was withheld and retained by the program.

b	    Blue Cross of Illinois disallowed $454,220 in consulting costs claimed by a consulting
      company. The intermediary also disallowed compensation costs claimed by two
      HHAs for services rendered by individuals associated with the consulting company.
      It also is reopening the 1991 cost report looking to disallow $175,000. Blue Cross of
      California and Iowa have already disallowed costs totally $636,800. Intermediaries in
      Pennsylvania and Florida are also looking into the situation. The costs have been
      disallowed because the providers cannot demonstrate that services were rendered to
      the extent billed, that they were related to patient care, or that the providers actually
      worked at the site. This is an on-going ORT case.

� 	   The owner of a Louisiana HHA was sentenced to 5 years probation and ordered to
      repay $119,000. The owner listed expenses of a costume shop and a magazine that


                                            c-3
     the individual owned in the HHA’s cost report. Expenses included payroll, leases,
     telephone services, and advertising.

b	   The owner of a Louisiana HHA, four employees, and one personal friend defrauded
     Medicare by submitting false cost reports, concealing financial transactions with
     fictitious corporations, forging physician signatures on certificates of medical
     necessity, claiming services that were never rendered, and submitting claims for
     services to non-Medicare qualifying individuals. The owner was sentenced to
     37 months in prison and ordered to make restitution of $221,220 to the Department
     for conspiracy, false statements, and mail fraud. The administrator, quality assurance
     coordinator, staff coordinator, and licensed practical nurse were also sentenced to
     prison, with terms ranging from 3 to 18 months and ordered to pay restitution and
     fines totaling $67,370. A personal friend who allowed the owner to use the friend’s
     name in the fraud scheme was sentenced to 3 months and ordered to make $62,270 in
     restitution. All were given 3 years supervised release following their prison terms.

w	   A recently issued audit, conducted by the OIG and Blue Cross of California, reviewed
     a sample of 100 claims for which a California HHA received Medicare monies. The
     100 claims represented 1,895 visits to 92 beneficiaries. Of those, 1,214 visits, or
     64.1 percent, were deemed unallowable. Reasons included beneficiaries who were
     not homebound, services claimed that were not reasonable and necessary, services
     provided without valid physician orders, and services without supporting
     documentation. Approximately $2.2 million were estimated to be unallowable.




                                          c-4
                               APPENDIX                   D





                                AGENCY COMMENTS




The full text of comments received from the Health Care Financing Administration,
the Office of the Assistant Secretary for Planning and Evaluation, and the Office of the
Assistant Secretary for Management and Budget.
                                                                       Health Care 

     DEPARTMENT OF HEALTH & HUMAN SERVICES                             Financing-Administration 



                                                                       Memorandum


               JUL 2 I 199-i'
DATE:

TO: 	        June Gibbs Brown
             Inspector General

FROM: 	      Bruce C. Vlade
             Administrator

SUBJECT: 	 Office of Inspector General (OIG) Draft Report entitled: “Hom&Ieahh
           Problem Providers and Their Impact on Medicare,” (OEI-09-96-00110)


We reviewed the above-referenced report that identifies and describes the common
characteristics of problem home health agencies, and how these agencies, contribute to
Medicare fraud, abuse, and waste.

Our comments are attached for your consideration. Thank you for the opportunity to
review and comment on this report.

Attachment
              Health Care Financing Administration (HCFA) Comments on
       the Office of Inspector General (OIG) Draft Reuort entitled: “Home Health
              Problem Providers and Their Impact on Medicare.” (OEI-09-96-00 1101

OIG Recommendation

To protect the Medicare home health benefit, HCFA needs to develop and implement
additional program safeguards that would (1) strengthen its ability to identify problem
providers; (2) prevent problem home health agencies (HHAs) from entering the program;
and (3) prevent the Medicare trust fund from incurring further losses due -tothe activities
of problem HHAs. HCFA should take administrative action or, if necessary, seek
legislative authority to:

Require that each HHA obtain a surety bond equal to the amount of anticipated Medicare
billings during its fiscal year. Should the HHA’s claims exceed the amount of the bond
before a cost report has been filed and audited, the HHA should be required to increase
the amount of the surety bond accordingly. The cost of the bond should not be
considered a reimbursable expense for Medicare cost reporting purposes.

HCFA ResDonse

We concur. Bonding provides a higher level of scrutiny before HHAs are permitted to
participate in the Medicare program.

OIG Recommendation

Require “‘userfees,” so that new and existing Has are required to pay for their initial
certifications, comprehensive on-site reviews, and recertifications. If this is not possible,
we believe theallocation of additional resources to the certification and monitoring effort
by the fiscal intermediaries, state agencies, and HCFA regional offices will pay for itse&
because it will substantially reduce, or even eliminate, the continued accrual of
uncollectible overpayments as well as payments for noncovered and medically-
unnecessary services.

HCFA Response

We concur. HCFA agrees and supports such a proposal.
                                                                                       2


OIG Recommendation

Require the majority of the HHA’s principals have prior health care experience directly
related to the provision of home health services in order to receive Medicare certification.

HCFA Response

We concur. The current HHA conditions of participation at 42 CFR 484.4 prescribe the
personnel qualifications for the administrator. The CFR states: “Administrator, home
health agency. A person who: (a) Is a licensed physician; or (b) Is a registered nurse; or
(c) Has training and experience in health service administration and at least 1 year of
supervisory or administrative experience in home health care or related home health
programs.” HCFA published in the Federal Register on March 10,1997, a proposed
revision to the conditions of participation at 42 ‘CFR484.4 to read: “The administrator of
a home health agency must: (i) Be a licensed physician; or (ii) Hold an undergraduate
degree and (A) Be a registered nurse; or (B) Have education and experience in health
services administration, with at least 1 year of supervisory or administrative experience in
home health care or a related health care program, and in financial management.”

OIG Recommendation

Develop a data bank of owners, principals, and other HHA officials and related
organizations so their activity can be monitored, tracked, and cross-referenced.

HCFA Response

We concur. The new provider enrolhnent process, which includes a new national
enrollment application for Part A and Part B providers, will provide HCFA with a
comprehensive profile of all Medicare providers. It will allow Medicare to screen
applicants before they are authorized to receive payments for services because it requires
contractors to verify all data provided on the application; e.g., licensure information, prior
sanction or exclusion information, place of business, ownership information, billing
contracts, tax identification data, etc. The new application will collect information on
owners, principals, and managing and directing employees of HHA organizations. The
revised enrollment application will be implemented for initial use by Part A providers in
July 1997. In conjunction with the new application, HCFA will develop and implement
the Provider Enrollment, Chain, and Ownership System. This database will consolidate
ownership data collected on the enrollment application by Medicare contractors and the
National Supplier Clearinghouse. Similar to the enrollment application, this database will
contain national data on Part A (owners and managing employees) and Part B providers.
We expect to implement this system by the end of calendar year 1997.
                                                                                    3


OIG Recommendation

Require all HHA owners and principals to provide their individual Social Security
numbers and Employer Identification numbers when they submit an application to
become Medicare providers.

HCFA ResDonse

We concur. We support this recommendation.

OIG Recommendation

Prior to certification.,ensure that new HHAs are financially sound and have adequate
fiscal recordkeeping capabilities and their owners and principals are qualified and
trustworthy. This should be accomplished through a comprehensive on-site review by an
interdisciplinary team of auditors, medical reviewers, and state surveyors.

HCFA Response

We partially concur. While we agree with the intent of the recommendation, we believe
the provisions in the President’s Medicare and Medicaid Fraud, Abuse, and Waste
Prevention Amendments of 1997, take a more appropriate approach in addressing
problem HHAs.
                                                                                         :
OIG Recommendation

Refuse to enter into a provider agreement with any HHA whose owners or principals:
              -...ZS--’
              owe money to the Federal Government in the form of Medicare
              overpayments, tax liens, or unpaid loans;

             have filed bankruptcy or have negative credit ratings;

             have prior criminal records; and/or

             have been associated wi erg are the relatives of the owner of a Medicare
                                    9
             provider who was found to defraud, abuse, or otherwise misappropriate
             Medicare dollars.
                                                                                   4


H&A Resnonse

We partially concur. While we agree we should refuse to enter into provider agreements
with HHAs whose owners and principals do not live up to certain financial standards, we
believe the provisions in the President’s Medicare and Medicaid Fraud, Abuse, and
Waste Prevention Amendments of 1997take a more appropriate approach in addressing
problem HHAs.

OIG Recommendation

Preclude the discharge of Medicare debts through bankruptcy.

HCFA Rewonse                                                                ---.

We concur. The President announced legislative proposals to fight fraud and-abuse in
health care, including precluding individuals and entities from discharging Medicare
debts through bankruptcy.

OIG Recommendation

Impose a moratorium on any new HHA certifications until adequate program safeguards
are implemented, unless the HHA can demonstrate that it will be operating in an
underserved area.

HCFA Resoonse

We nonconcur. HCFA has the responsibility to establish and implement adequate
program requirements and safeguards. Ifan HHA is able to comply with these
requirements, it should be allowed to enter the Medicare program.

OIG Recommendation

We also reiterate our previous recommendation that HCFA should:

Tighten controls over the periodic interim payment (PIP) program, more closely monitor
HHAs that are on PIP, and seek legislation to eliminate this method of reimbursement.
                                                                                 5


HCFA Response

The President announced, as part of his Balanced Budget Act of 1997, the elimination of
PIP for HHAs effective on or after the implementation of HHA Prospective Payment on
October 1, 1999. We support the President’s Medicare and Medicaid Fraud, Abuse, and
Waste Prevention Amendments of 1997.




                                                                                          :




             ---.-..-_.
        DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of the Secretary



                                                                                  Washingtpn, D.C. 20201


                                             JUN 1 0 1997



TO: 	          June Gibbs Brown
               Inspector General     ,

FROM:          David F. Garrison
               Principal Deputy Assistant Secret&
                for Planning and Evaluation

SuE3JECT: 	    OIG Draft Report: “Home Health: Problem Providers and Their Impact on
               Medicare,” OEIO9-96-00110 -- CONCUR WITH COMMENTS.

I concur with this report and submit the following comments.

My staffmet with your staff in March of 1997 to discuss this report. Though ASPE is quite
pleased with the changes that the IG has made, we continue to be concerned that the report can
be confusing if the reader is not familiar with the history and evolution of the home health
benefit.

Specifically, we are concerned that one might conclude that all post-1989 home health visits by
the sampled problem providers in the five ORT states were fraudulent. ASPE recommends that
the IG make the following changes:

1. 	    The fmdings on page ii of the Executive Summary that refers to the home health program
        benefit expansion and the lack of restrictions on certification could be contusing to the
        reader. The report implies that all post-1989 utilization is suspect when in fact the
        Duggan settlement liberalized the home health eligibility criteria and the availability of
        services. The Duggan case is relevant to the post-1989 growth in costs, utilization and the
        number. of Medicare-certified HHAs. A sentence should be inserted here that explains
        how the home health benefit changed substantially as a result of the Duggan v. Bowen
        lawsuit.

2. 	    Similarly, in describing that 45 percent of all Medicare expenditures for home health
        services went to the problem providers in the five ORT states, the reader might conclude
        that the provision of these services were somehow fraudulent or unnecessary. The IG
        should insert a sentence explaining that though it is clear that problem providers may
        have taken advantage of the liberalization in the benefit since 1989, this does notmean
        that all visits provided to these patients by these providers were “problem” or
        unnecessary visits.
� 
     .




         Page 2 - June Gibbs Brown


         3. 	   The first sentence on page 12 of the report -- “In 1989, Congress enacted changes...” is
                not correct. Please insert the following sentence:

                “On July 1,1989, regulatory revisions to the home health benefit as a result of the
                Duggan v. Bowen lawsuit became effective. The Duggan decision resulted in easing
                barriers-to program participation and expanding the types of services provided to
                beneficiaries.”
          DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of the Secretary



                                                                              Washingtqn, DC.     20201


                                       JUN I 7 1997


                                                                iii; i-,,: :. ;.)(‘i~‘T~*‘*
MEMORANDUM TO:                The Inspector General                 GEf:lE14,f,L
                              Attention: June Gibbs Brown

FROM           :
             John J. Callahan 

                              Assistant Secretary for Management and Budget 


SUBJECT             :	        Concur with Comment: OIG Draft Report: “Home Health:
                              Problem Providers and Their Impact on Medicare”
                                                -   ac,i-~9-9&-6twO _-_.
ASMB commends the OIG for its strong recommendations for combating Medicare
fraud, waste, and abuse in the home health benefit , as outlined in this draft report.
However, since this draft report was written, Congress has offered several proposals.as
part of Medicare reconciliation legislation that would address some of the OIG’s
concerns. Furthermore, the current draft does not completely recognize all the
 President’s legislative proposals to address home health fraud. In order to ensure that
the OIG final report is as timely as possible, ASMB suggests that OIG rewrite its
 recommendations section to acknowledge the following:

� 	       Both the President and Congress are recommending elimination of periodic
          interim payments (PIP) upon implementation of a home health prospective
          payment system in FY 2000.

0	        The President has proposed giving the Secretary authority to exclude Medicare
          certifications to provider applicants convicted of a felony.

0	         Congress has proposed Medjcare legislation that would require surety bonds for
           home health agencies.

0	    .    Congress has proposed Medicare legislation that would exclude health entities
           from participating in Federal health programs if ownership of the entity is
           transferred to an immediate family member in anticipation of, or following, a
           conviction
